IN THE SUPREME COURT OF THE UNITED STATES
No.
Martha Aguirre,
Petitioner
vs
The United States of America,
Respondent

CERTIFICATE OF SERVICE

I, M. Kirk Okay, CJA counsel to the Petitioner, hereby certify that on this 4th
day of August, 2021, I caused one (l) copy of the Petition for Writ of Certiorari to be
served by regular first- class United States Mail upon the following counsel:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue
Washington, DC 20530-0001
I further certify that all parties required to be served have been served.

wYX .(C- £0
M. Kirk Okay
CJA Counsel to Petitioner
The Okay Law Firm
546 East Main Street
Post Office Box 622
Batavia, New York 14021-0622
(585) 343-1515

-'I

